HHS/OIG, Audit -"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Cross Blue Shield of Connecticut,"(A-07-02-03021)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue
Cross Blue Shield of Connecticut," (A-07-02-03021)
February 27, 2004
Complete
Text of Report is available in PDF format (436 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of
Connecticut was a Medicare contractor until its contract was terminated in
1999 and, as such, was allowed to claim reimbursement for its Medicare employees'
pension costs.  Federal regulations and the Medicare contracts provide,
however, that pension gains which occur when a Medicare segment of a pension
plan closes, be credited to the Medicare program.  Accordingly, we recommended
that Connecticut remit $1,351,284 in excess pension assets to the Medicare
program.  Connecticut agreed with our recommendation.